                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT ME.MORANDUM

Case Number: IlOll0051                                                                      . Page   1 of!



                  We received an allegation that a PIl submitted duplicate proposals in 2007 to NSF2 and
         the state.3,4 Additionally, it was alleged the PI failed to mention his 2007 NSF or state award on
         the Current and Pending Support (C&PS) forin for his 2010 NSF proposa1.5

                  We contacted the PI. Information and documentation he provided indicated he had
         accurately completed the C&PS forms for his 2007 and 2010 NSF proposals, and that he had not
         received state money in direct support for the NSF-funded project. His College's cognizant
         Fiscal Officer6 provided a letter confirming that the state award was not a direct award to the
         project, but rather was allocated to all the projects within a certain institutional facility.?

                   Accordingly, this case is closed and no further action will be taken.




NSF OIG Fonn 2 (1lI02)
